LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

July 6, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 19-1341: RICHARD A. VAN AUKEN, TRUSTEE AND RICHARD A. VAN AUKEN,
BENEFICIARY V. FLETCHER R. CATRON, ESQ.; PETER F. WIRTH, ESQ.;
AND KAREN AUBREY, ESQ.
Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amici
Curiae Center for Estate Administration Reform, et al. referenced above contains 1,713
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 6th day of July 2020.

